September 29, 2000

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

JOHN BARBANTI
SOUTH FLORIDA DISTRICT MANAGER

SUBJECT:	 Audit Report - Review of the Violence Prevention and Response
          Programs in the South Florida District (Report Number LB-AR-00-006)

This report presents the results of our review of the violence prevention and response
programs in the South Florida District (Project Number 99EA007ER0007). We engaged
a contractor, Williams, Adley & Company, LLP, to assist us in conducting this audit.
This audit report is one of a series of reports on violence prevention and response
efforts within the Postal Service.

On the basis of our review, we concluded that required controls were not fully
implemented to reduce the potential for violence in the South Florida District and the
district’s ability to respond to crisis situations could be improved. Although the district
generally complied with the Threat Assessment Team Guide when reacting to incidents
of violence and also complied with some of the policies and procedures in the Crisis
Management Plan for Incidents of Violence in the Workplace, it did not comply with
other violence prevention requirements. Although the vice president for the Southeast
Area did not agree with our overall conclusions, we believe the district’s planned or
implemented actions are responsive to the recommendations and address the issues
identified in this report. Therefore, we will not pursue resolution on this disagreement at
this time. Management’s comments and our evaluation of these comments are included
in the report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Joyce Hansen, director, Labor Management-
Rosslyn, or me at (703) 248-2300.



Debra D. Pettitt
Acting Assistant Inspector General
 for Oversight and Business Evaluations

Attachment
cc: Patrick R. Donahoe
    Yvonne D. Maguire
    Anthony J. Vegliante
    John R. Gunnels
Review of the Violence Prevention and Response                                LB-AR-00-006
 Programs in the South Florida District


                                  TABLE OF CONTENTS
Executive Summary                                                                 i

Part I

Introduction                                                                     1

   Background                                                                    1
   Objective, Scope, and Methodology                                             1

Part II

Audit Results	                                                                   2

   Potential for Violence in the District 	                                      2

   Implementation of Violence Prevention and Response Programs                    2
   Recommendations                                                               13
   Summary of Management’s Comments                                              13
   Evaluation of Management’s Comments                                           14

Appendix A.	 Objective, Scope and Methodology                                    15

Appendix B.	 Statistical Sampling and Projections for Physical Security          17
             Reviews and the Existence of Crisis Management Plans
             For Facilities in the South Florida District Fiscal Years 1997
             and 1998

Appendix C.	 Sample of Crisis Management Plans On Site and Physical              19
             Security Reviews Conducted at South Florida District
             Facilities Fiscal Years 1997 and 1998

Appendix D.	 Statistical Sampling and Projections for Employees Trained          21
             in Workplace Violence Awareness in the South Florida
             District June 1, 1997, through June 30, 1999

Appendix E.	 Management’s Comments                                               23
Review of the Violence Prevention and Response                                      LB-AR-00-006
 Programs in the South Florida District


                                  EXECUTIVE SUMMARY
 Introduction 	                This report presents the results of our review of violence
                               prevention and response programs within the South Florida
                               District, located in the Southeast Area. The South Florida
                               District was one of six districts randomly selected from the
                               nine districts within the Southeast Area.

                               The Office of Inspector General (OIG) engaged a
                               contractor, Williams, Adley, & Company, LLP, to conduct
                               fieldwork and data analysis, prepare working papers, and
                               draft reports. The OIG provided technical support, statistical
                               projections, and quality assurance reviews. The OIG and
                               the contractor prepared the final report.

                               Our objective was to determine whether the South Florida
                               District implemented Postal Service policies regarding
                               violence prevention and response programs.

 Results in Brief	             On the basis of the review, we concluded that required
                               controls were not fully implemented to reduce the potential
                               for violence in the South Florida District or respond to crisis
                               situations.

                               The South Florida District generally complied with the
                               Threat Assessment Team Guide when reacting to incidents
                               of violence. The district:

                               •	 Established the threat assessment team in fiscal year
                                  1995 – two years prior to the issuance of violence
                                  prevention criteria.

                               •	 Incorporated team member participation into their job
                                  descriptions.

                               •	 Included the Postal Inspection Service as a core team
                                  member.

                               •	 Communicated and consistently enforced the zero
                                  tolerance policy.

                               •	 Engaged in case management.




                                                 i
Review of the Violence Prevention and Response                                    LB-AR-00-006
 Programs in the South Florida District


                               The South Florida District also complied with most of the
                               policies and procedures outlined in the Crisis Management
                               Plan for Incidents of Violence in the Workplace.

                               However, the South Florida District did not fully implement
                               required proactive strategies designed to prevent violence
                               from occurring as required by the Threat Assessment Team
                               Guide. District officials stated they followed what they
                               believed the guide required and considered the deficiencies
                               we identified as “minor.” As a result, required controls were
                               not fully implemented to reduce the potential for violence in
                               the workplace. Our audit disclosed that the South Florida
                               District did not:

                               •   Conduct annual physical security reviews.

                               •   Monitor and evaluate climate indicators.

                               •   Measure team performance.

                               •   Mandate violence awareness training.

                               In addition, the district did not ensure receipt of local
                               customized crisis management plans at all facilities in
                               accordance with the Crisis Management Plan for Incidents
                               of Violence in the Workplace. We used a statistical sample
                               to project that as many as 36 (27 percent) of the 135 district
                               facilities did not have a copy of their local customized plan
                               on site. (See Appendices B and C.)

 Summary of                    We recommended the vice president, Southeast Area
 Recommendations               Operations, direct the South Florida District manager to
                               implement five recommendations designed to ensure
                               controls are implemented to improve the effectiveness of
                               the violence prevention and response programs.

                               We have summarized management’s comments in the
                               report and included the full text of the comments in
                               Appendix E.

 Summary of                    The vice president, Southeast Area Operations stated that
 Management’s                  the OIG report was misleading and focused on the condition
 Comments                      of the violence awareness programs in fiscal year (FY) 1997




                                                 ii
Review of the Violence Prevention and Response                                      LB-AR-00-006
 Programs in the South Florida District


                               and 1998. He stated that the OIG based its August 2000
                               conclusions on data obtained before June 1999. He further
                               stated that the Southeast Area remained committed to the
                               continuous improvement of the violence prevention and
                               response programs and, therefore, instructions would be
                               issued to district managers to reinforce the need to
                               implement the controls necessary to improve the
                               effectiveness of the programs.

                               The South Florida District manager responded to the
                               five recommendations with a list of what the district had
                               accomplished from September 1999, through August 2000.

                               We have summarized management’s comments in the
                               report and included the full text of the comments in
                               Appendix E.

 Overall Evaluation of         We disagree that the OIG report was misleading and
 Management’s                  focused on the condition of the violence awareness
 Comments                      programs in FY 1997 and 1998. Some data was used for
                               those fiscal years because they were the latest complete
                               fiscal years at the time of our visit. Interviews with postal
                               officials, however, regarding their implementation of
                               proactive strategies occurred in September 1999.

                               Although the vice president for the Southeast Area did not
                               agree with our overall conclusions, we believe the district’s
                               planned or implemented actions are responsive to the
                               recommendations and address the issues identified in this
                               report.




                                                 iii
Review of the Violence Prevention and Response                                                 LB-AR-00-006
 Programs in the South Florida District


                                              INTRODUCTION
    Background                       The Postal Service recognizes the importance of ensuring
                                     the safety of its employees by creating and maintaining a
                                     work environment that is violence-free. This concept
                                     emphasizes using a viable workplace violence prevention
                                     program as a first step in helping to ensure a violence-free
                                     workplace. An effective program depends on a universal
                                     zero tolerance policy and a zero tolerance action plan that is
                                     consistently implemented for the management of threats,
                                     assaults, and other inappropriate workplace behavior.

                                     The Postal Service established the following initiatives and
                                     strategies to prevent and minimize the potential risk for
                                     violence in the workplace:

                                     •	 The Joint Statement on Violence and Behavior in the
                                        Workplace states the Postal Service’s position that
                                        violent and inappropriate behavior will not be tolerated
                                        by anyone at any level of the Postal Service.

                                     •	 The Threat Assessment Team Guide, Publication 108,
                                        and the Crisis Management Plan for Incidents of
                                        Violence in the Workplace, Publication 107,1 require the
                                        districts to develop appropriate threat assessment and
                                        crisis management teams, as well as team plans of
                                        operation.

                                     •	 The Administrative Support Manual requires security
                                        control officers or their designees to conduct annual
                                        physical security reviews at all facilities.

    Objective, Scope, and            Our objective was to determine whether the South Florida
    Methodology                      District implemented Postal Service policies regarding
                                     violence prevention and response programs.

                                     The Office of Inspector General (OIG) engaged a contractor
                                     to conduct fieldwork and data analysis, prepare working
                                     papers, and draft reports. The OIG provided technical
                                     support, statistical projections, and quality assurance
                                     reviews. The OIG and the contractor prepared the final
                                     report. (See Appendix A for complete Objective, Scope,
                                     and Methodology details.)

1
    The Crisis Management Plan for Incidents of Violence in the Workplace is under revision.




                                                           1
Review of the Violence Prevention and Response                                     LB-AR-00-006
 Programs in the South Florida District


                                      AUDIT RESULTS
 Potential for Violence        On the basis of the review, we concluded that required
 in the District               controls were not fully implemented to reduce the potential
                               for violence in the South Florida District and the district’s
                               ability to respond to crisis situations could be improved.
                               Although the district generally complied with the Threat
                               Assessment Team Guide when reacting to incidents of
                               violence and also generally complied with the policies and
                               procedures in the Crisis Management Plan for Incidents of
                               Violence in the Workplace, it did not comply with other
                               violence prevention requirements.

                               Districts that do not comply with these requirements face an
                               increased risk for violence in their facilities. Such violence
                               increases stress, inflicts emotional wounds, and lowers
                               employee morale. Organizationally, it diminishes credibility,
                               decreases productivity, creates work-specific tension, and
                               may lead to damage of property.

 Implementation of             The South Florida District generally complied with the
 Violence Prevention           Threat Assessment Team Guide when reacting to incidents
 and Response                  of violence. The district:
 Programs

                               •	 Established the threat assessment team in fiscal year
                                  (FY) 1995 – two years prior to the issuance of violence
                                  prevention criteria.

                               •	 Incorporated team member participation into their job
                                  descriptions.

                               •	 Included the Postal Inspection Service as a core team
                                  member.

                               •	 Communicated and consistently enforced the zero
                                  tolerance policy.

                               •	 Engaged in case management.

                               The district also complied with most of the policies and
                               procedures outlined in the Crisis Management Plan for
                               Incidents of Violence in the Workplace.




                                                 2
Review of the Violence Prevention and Response                                                            LB-AR-00-006
 Programs in the South Florida District



                                     However, the South Florida District did not fully implement
                                     proactive strategies designed to prevent violence from
                                     occurring as required by the Threat Assessment Team
                                     Guide. District officials stated they followed all of the
                                     policies and procedures they believed the guide required
                                     and considered the deficiencies we identified as “minor." As
                                     a result, required controls were not fully implemented to
                                     reduce the potential for violence in the workplace. Our audit
                                     disclosed the South Florida District did not:

                                     •   Conduct annual physical security reviews.

                                     •   Monitor and evaluate climate indicators.

                                     •   Measure team performance.

                                     •   Mandate violence awareness training.

                                     In addition, the district did not ensure receipt of local
                                     customized crisis management plans at all facilities in
                                     accordance with the Crisis Management Plan for Incidents
                                     of Violence in the Workplace. We used a statistical sample
                                     to project that as many as 36 (27 percent) of the 135 district
                                     facilities did not have a copy of their local customized plan
                                     on site. (See Appendices B and C.)

    Physical Security                The district did not conduct annual physical security reviews
    Reviews                          in all facilities as mandated by the Postal Service
                                     Administrative Support Manual. The physical security
                                     reviews were not conducted because district officials stated
                                     that facility security control officers were not designated and
                                     trained until FY 1999.

                                     The Postal Service Administrative Support Manual,
                                     Chapter 2, Section 27, requires the security control officer or
                                     designee to conduct annual physical security reviews at all
                                     Postal Service facilities to ensure that the appropriate
                                     attention is given to security issues.2

                                     We used a statistical sample to project that the district
                                     conducted no more than 10 (about 7 percent) of the

2
  The chief postal inspector is designated as the security officer for the Postal Service. The security control officers
located at each postal facility liaison with the Postal Inspection Service on all security matters.




                                                            3
Review of the Violence Prevention and Response                                                        LB-AR-00-006
 Programs in the South Florida District


                                     135 required annual physical security reviews in FY 1997
                                     and 1998. (See Appendices B and C.)

                                     The lack of physical security reviews at Postal Service
                                     facilities may increase the risk of workplace violence or the
                                     loss or destruction of Postal Service property and the mail.

    Climate Indicators	              We found that the South Florida District did not monitor and
                                     evaluate climate indicators to identify sites that had the
                                     potential for violence, as required by the Threat Assessment
                                     Team Guide. The Employee and Workplace Intervention
                                     Analyst informed us that the threat assessment team
                                     recognized grievances and Equal Employment Opportunity
                                     complaints as climate indictors, but we found that they did
                                     not review them to identify the risk for violence in the
                                     workplace. As a result, controls associated with identifying
                                     and assessing indicators were not used to reduce the
                                     potential for violence in the workplace.

                                     The guide outlines several climate indicators that are
                                     relevant for review when making such determinations.
                                     Among those indicators are grievances, Equal Employment
                                     Opportunity complaints, Employee Assistance Program
                                     contacts, and labor-management relationships.3

                                     We reviewed several climate indicators that management
                                     could use as benchmarks to assess the workplace climate
                                     and identify locations that may require a climate
                                     assessment.




3
    We considered the results of the Voice of the Employee survey as an indicator of labor-management relationships.




                                                           4
Review of the Violence Prevention and Response                                                 LB-AR-00-006
 Programs in the South Florida District



                                 Grievances. Exhibit 1 shows the South Florida District had
                                 the second highest ratio (47:100) in the Southeast Area of
                                 step 3 grievance appeals to employees for the period
                                 June 1, 1997, through June 30, 1999.4




                                 For the same period, Exhibit 2 shows that the district had
                                 the third highest ratio (37:100) of step 3 contract-related
                                 grievance appeals to employees.




4
  In a report entitled, “U.S. Postal Service: Little Progress Made in Addressing Persistent Labor-Management
Problems,” October 1997, GAO/GGD-98-1, GAO reported that a ratio of 13:100 grievances to employees was a high
ratio. Union and management officials did not dispute this claim.




                                                      5
Review of the Violence Prevention and Response                                   LB-AR-00-006
 Programs in the South Florida District


                               The district had the highest ratio (10:100) of step 3
                               discipline-related grievance appeals to employees, for the
                               same period, as shown in Exhibit 3.




                               Equal Employment Opportunity Complaints. Exhibit 4
                               shows that during the period June 1, 1997, to June 30,
                               1999, the district had the highest ratio (1:15) of Equal
                               Employment Opportunity formal complaints to employees in
                               the Southeast Area.




                                                 6
Review of the Violence Prevention and Response                                                      LB-AR-00-006
 Programs in the South Florida District



                                   Employee Assistance Program Cases. For the same
                                   period, the district had one of the second highest ratios
                                   (1:8) of total pre-case activity5 Employee Assistance
                                   Program cases per employee as depicted in Exhibit 5.




5
  The total pre-case activity contacts include all employees, supervisors, and family members who made contact with
the Employee Assistance Program, either through telephone or in person to set up appointments with an Employee
Assistance Program counselor.




                                                         7
Review of the Violence Prevention and Response                                                         LB-AR-00-006
 Programs in the South Florida District



                                   Voice of the Employee Survey Results. A majority of
                                   employees who responded to the Voice of the Employee
                                   survey6 in the South Florida District were satisfied with
                                   their work environment. As shown in Exhibits 6 and 7, the
                                   number of employees who responded favorably to their
                                   workplace environment ranged from about 43 for
                                   quarter 4 of 1998, to about 45 percent for quarters 1, 2,
                                   and 3 of 1999. The number of employees who responded
                                   unfavorably to their workplace environment, ranged from
                                   about 32 percent for quarter 4 of 1998, to about
                                   31 percent in quarters 1, 2, and 3 of 1999. In addition,
                                   about 24 percent of the employees who responded for the
                                   same quarters gave neutral responses.




6
  The Voice of the Employee survey is a data collection instrument that the Postal Service has established to help
improve workplace relationships and ensure that all employees are treated with fairness, feel safe in their workplace,
have opportunities to participate and take pride in being postal employees.




                                                          8
Review of the Violence Prevention and Response                                    LB-AR-00-006
 Programs in the South Florida District




                               While these indicators cannot be used as the sole basis for
                               reaching conclusions concerning the districts workplace
                               environment, the Threat Assessment Team can use them to
                               assess the potential for violence in the district.

                               Climate Assessments. The South Florida District
                               conducted four climate assessments during our audit
                               period. However, the climate assessments were not a
                               result of the district’s evaluation of any of the climate
                               indicators discussed earlier. Specifically, Postal
                               headquarters identified the entire South Florida District and
                               two district facilities as troubled work sites. In addition,
                               district management and one of the unions identified the
                               district as having work environment problems. Routine
                               analysis of climate indicators may have identified the need
                               for climate assessments at these sites before problems
                               occurred.

                               For example, the first climate assessment was conducted
                               district-wide based on a request by headquarters. An
                               external consulting firm performed the assessment in
                               November 1998 to review problems that hampered morale
                               and productivity. The second district-wide assessment was
                               performed in December 1998 by a union and district
                               management task force. This assessment was conducted
                               to identify problems between union and management, and
                               between delivery supervisors and managers.




                                                 9
Review of the Violence Prevention and Response                                     LB-AR-00-006
 Programs in the South Florida District



                               The issues raised in both assessments included:
                               (1) unwarranted discipline; (2) noncompliance with the
                               collective bargaining agreements; (3) employees not being
                               treated with dignity and respect; and (4) an “inflexible view
                               of postal management.”

                               As a result of both district climate assessments, the district
                               developed an action plan, which included communication
                               training for managers and supervisors; focus and work
                               groups to increase communication between management,
                               unions and employees; and development of performance
                               incentives.

                               In addition to the district-wide assessments, two facility
                               climate assessments were performed at the request of
                               Postal Service headquarters. The district’s Employee and
                               Workplace Intervention Analyst performed the assessments
                               at two troubled work sites, which revealed the work
                               environments to be hostile and tense. Recommendations
                               were made to adjust management style and improve
                               communication.

                               The district could improve its process for evaluating the
                               workplace climate by proactively identifying and monitoring
                               sites or situations that have the potential for violence.

                               Reviewing the indicators on a periodic basis could provide
                               valuable information about the level of conflict in district
                               facilities.

 Measurement of Threat The South Florida District’s Threat Assessment Team did
 Assessment Team       not establish performance measures as required by the
 Performance           Threat Assessment Team Guide. The Human Resources
                       manager told us that the team measured their activities by
                       the resolution of cases, level of information communicated
                       to team members, and the activity of the team. Without
                       performance measures, the team could not objectively
                       measure the effect violence prevention activities had on the
                       workplace climate and operations.

                               Performance measures help reduce the risk of violence in
                               the workplace because they provide objective information to
                               management on baseline performance and measure the
                               effect of the violence prevention program. Objective data




                                                 10
Review of the Violence Prevention and Response                                     LB-AR-00-006
 Programs in the South Florida District


                               can be obtained through the use of surveys, the numbers
                               and types of threats and assaults, the tracking system, and
                               post-incident analysis of each violent incident.

 Violence Awareness 	          The district did not provide workplace violence awareness
 Training	                     training for all district managers, supervisors, and craft
                               employees in accordance with the Threat Assessment
                               Team Guide. The training manager stated that she was not
                               aware of the training requirements. Employees who have
                               not received violence awareness training may not be
                               effective in preventing violence in the workplace.

                               The Threat Assessment Team Guide states that every
                               Postal Service manager and supervisor should complete
                               eight hours of workplace violence awareness program
                               training and four hours of follow up training. Training topics
                               should include defusing a difficult situation and providing
                               effective supervision. In September 1998, Postal Service
                               management mandated one hour of violence awareness
                               training for all craft employees, supervisors, and managers.

                               The South Florida District’s workplace violence awareness
                               training consisted of:


                               •	 An eight-hour workplace violence awareness training
                                  course primarily for managers and supervisors.

                               •	 An eight hour sexual harassment and reasonable
                                  accommodation course.

                               •	 A two-and-a-half-hour sexual harassment awareness
                                  course for performance cluster members.

                               •	 A four-hour stress management course.

                               •	 A four-hour diversity awareness training course.

                               •	 A four-hour leadership and diversity part II course.

                               •	 A four-hour “Understand Me, Manage Me Better” course.




                                                 11
Review of the Violence Prevention and Response                                                           LB-AR-00-006
 Programs in the South Florida District


                                      •	 Stand-up talks,7 videos, and television displays on
                                         workplace violence primarily for craft employees.

                                      We used a statistical sample to project the number of
                                      managers, supervisors, and craft employees who had
                                      attended violence awareness training from June 1, 1997,
                                      through June 30, 1999. We projected that up to 129
                                      (17 percent) of the 754 managers and supervisors in the
                                      district had no workplace violence awareness training. We
                                      projected that up to 635 (84 percent) of the 754 managers
                                      and supervisors received both the eight-hour workplace
                                      violence awareness training and the four-hour follow up.
                                      For the same period, we projected that up to 203
                                      (27 percent) of the 754 managers and supervisors received
                                      some workplace violence awareness training, ranging from
                                      6 hours to 16 hours, but did not meet the specific 12-hour
                                      criterion. (See Appendix D.)

                                      We projected that no more than 640 (6 percent) of the
                                      10,872 craft employees in the South Florida District
                                      received the required one-hour training course. (See
                                      Appendix D.)

                                      The Postal Service has recognized violence awareness
                                      training for supervisors, managers, and craft employees as
                                      a vital component in preventing violence in the workplace.
                                      This training is mandatory because employees need
                                      effective tools to recognize the warning signs of violence
                                      and possibly defuse difficult situations.

    Crisis Management                 The district did not ensure the receipt of local customized
    Plans Available At                crisis management plans at all district facilities in
    Facilities                        accordance with the Crisis Management Plan for Incidents
                                      of Violence in the Workplace. Officials at some of the
                                      district facilities told us they thought they had a plan but
                                      could not locate it.

                                      We used a statistical sample to project that as many as
                                      36 (27 percent) of the 135 facilities in the South Florida
                                      District did not have a copy of the district’s crisis
                                      management plan. (See Appendices B and C.)



7
    We could not verify attendance at the stand-up talks because the district did not maintain a record of attendees.




                                                            12
Review of the Violence Prevention and Response                                     LB-AR-00-006
 Programs in the South Florida District



                               Facilities that do not have crisis management plans on site
                               may not have the necessary information to manage a crisis
                               through to a successful conclusion.

 Recommendations               We recommend the vice president, Southeast Area
                               Operations, direct the South Florida District manager to
                               implement controls to improve the effectiveness of the
                               violence prevention program. Specifically:

                               1. Conduct annual physical security reviews at all district
                                  facilities.

                               2. Monitor and evaluate climate indicators to identify
                                  conflict that could lead to violence in the workplace.

                               3. Establish performance measures to gauge team
                                  performance.

                               4. Mandate attendance at violence awareness training for
                                  all supervisors, managers, and craft employees.

                               5. Ensure receipt of local, customized crisis management
                                  plans at all district facilities.

 Summary of                    The vice president, Southeast Area Operations observed
 Management’s                  that the OIG report focused on the condition of the violence
 Comments                      awareness programs in FY 1997 and 1998. He stated that
                               because the OIG based its August 2000 conclusions on
                               data obtained before June 1999 (the majority of which is
                               FY 1997 and FY 1998), the conclusions are somewhat
                               misleading. He added that the report does not reference
                               any information/data during the past year (data pre-dates
                               June 1999). For example, the vice president pointed out
                               that the Southeast Area mandated the necessary Violence
                               Awareness Training in September 1999 for FY 2000 and
                               that training has now been fully completed and documented.
                               The vice president emphasized that the Southeast Area
                               remains committed to the continuous improvement of the
                               violence prevention and response programs and that
                               instructions would be issued to district managers to
                               reinforce the need to implement the controls necessary to
                               improve the effectiveness of the programs.




                                                 13
Review of the Violence Prevention and Response                                     LB-AR-00-006
 Programs in the South Florida District



                               The South Florida District manager responded with a list of
                               what has been accomplished in FY 2000, during the “one-
                               year lapse between the audit and the report.” He stated that
                               the South Florida District has conducted security reviews at
                               all units and completed the mandatory violence awareness
                               training in FY 2000. He noted that prior to the audit the
                               district began to monitor equal employment opportunity
                               complaints and grievance activity as well as the other
                               climate indicators. He observed that this effort was part of
                               the South Florida Action Plan to improve the workplace
                               environment dated June 1999. He further states that copies
                               of the Crisis Management Plan and Threat Assessment
                               Plan were distributed to all stations, branches, and plants
                               prior to the 1999 audit. He also stated that in the new fiscal
                               year a survey would be used as a tool to measure threat
                               assessment team performance.

                               We have summarized management’s comments in the
                               report and included the full text of the comments in
                               Appendix E.

 Evaluation of                 While we disagree that the OIG report was misleading and
 Management                    focused on the condition of the violence awareness
 Comment’s                     programs in FY 1997 and 1998, using data from those fiscal
                               years was necessary because they were the latest complete
                               fiscal years at the time of our visit. However, interviews with
                               postal officials regarding their implementation of proactive
                               strategies occurred in September 1999. We do
                               acknowledge that some time lapsed between the
                               completion of our fieldwork and release of our draft report to
                               management due to the application of this review at
                               24 other districts. Yet, we believe the report presents a fair
                               portrayal of the district’s threat assessment program.

                               Although the vice president for the Southeast Area
                               Operations did not agree with our overall conclusions, we
                               believe the district’s planned or implemented actions are
                               responsive to the recommendations and address the issues
                               identified in this report.




                                                 14
Review of the Violence Prevention and Response                                                        LB-AR-00-006
 Programs in the South Florida District


          APPENDIX A. OBJECTIVE, SCOPE AND METHODOLOGY
The Office of Inspector General (OIG) and the contractor reviewed applicable laws,
policies, procedures, climate assessments, and other documents, such as the Postal
Inspection Service’s Assault and Threats Incident Reports and investigative worksheets.
The OIG and contractor also reviewed United States General Accounting Office (GAO)
reports related to labor-management issues.

The OIG and contractor interviewed Postal Service officials in the South Florida District,
Southeast Area, and headquarters to obtain information about the Postal Service
workplace environment, and the procedures and policies implemented to ensure a safe
and violence-free workplace.

To determine the district's compliance with policies and procedures, the OIG and
contractor reviewed the district's Threat Assessment Team activities, zero tolerance
policy, and crisis management plan. The OIG and contractor compared the activities,
policies, and plans to the Postal Service requirements for violence prevention and
response strategies. The district's initiatives for addressing workplace environmental
climate issues, including training programs on violence prevention and response were
also reviewed.

The OIG and contractor reviewed climate indicators outlined in the Threat Assessment
Team Guide that may help the Threat Assessment Team develop preventive measures
to moderate risk and liability. Those climate indicators were the numbers of employee
grievances, Equal Employment Opportunity complaints, and Employee Assistance
Program cases for all districts in the Southeast Area, including the South Florida
District, for the period of June 1, 1997, through June 30, 1999.8 For the same period,
the OIG and contractor reviewed the workplace climate assessments for the South
Florida District. The OIG and contractor also reviewed results from the 1998 and 1999
Voice of the Employee surveys conducted in the South Florida District. We reviewed
this data as indicators of conflict that could lead to violence in the South Florida District.
The OIG and contractor compared some of the indicators in the South Florida District to
the same indicators in other districts within the Southeast Area.9

For fiscal years (FY) 1997 and 1998, the OIG projected the number of facilities where
district officials conducted annual physical security reviews, and maintained crisis
management plans on site.10 We used statistical sampling methodologies to determine
these numbers. (See Appendices B and C.)


8
  The OIG selected this audit period because Postal Service published the Threat Assessment Team Guide and 

Crisis Management Plan for Incidents of Violence in the Workplace in May 1997. 

9
  The OIG obtained this data from the Postal Service databases but did not verify the accuracy of the data.
10
   The OIG obtained this data from the Postal Service database. We did not verify the accuracy of the data, however, 

the audit team made every effort to include only sites that fell under Postal Service violence prevention and threat 

assessment guidelines. The team effort therefore included removing locations such as contractor-only facilities, 

parking lots, land, and antenna sites from the data provided, to arrive at the facility population size. 





                                                         15
Review of the Violence Prevention and Response                           LB-AR-00-006
 Programs in the South Florida District


For the period June 1, 1997, through June 30, 1999, the OIG projected the number of
craft employees, supervisors and managers who received the required number of hours
of workplace violence awareness training. We used statistical sampling methodologies
to project these numbers.11 (See Appendix D.)

The OIG and the contractor conducted the audit from September 1999, through
September 2000, in accordance with generally accepted government auditing standards
and included such tests of internal controls as considered necessary under the
circumstances. The OIG and contractor discussed the conclusions and observations
with appropriate management officials and included their comments where appropriate.




11
     See footnote number 9.




                                                 16
Review of the Violence Prevention and Response                                     LB-AR-00-006
 Programs in the South Florida District


                                         APPENDIX B
     STATISTICAL SAMPLING AND PROJECTIONS FOR PHYSICAL
        SECURITY REVIEWS AND THE EXISTENCE OF CRISIS
              MANAGEMENT PLANS FOR FACILITIES
                IN THE SOUTH FLORIDA DISTRICT
                  FISCAL YEARS 1997 AND 1998

Purpose of the Sampling

One of the objectives of this audit was to assess the South Florida District’s
implementation of Postal Service policy regarding physical security reviews and crisis
management plans. In support of this objective, the audit team employed a simple
random attribute sample design that allows statistical projection of responses from
individual facilities within the South Florida District.

Definition of the Audit Universe

The audit universe consisted of 135 facilities, such as post offices, stations, branches,
postal stores, and processing and distribution centers. The South Florida District
management was the source of the universe data. We did not verify the accuracy of the
data, however, the audit team made every effort to include only sites that fell under
Postal Service violence prevention and threat assessment guidelines. The team effort,
therefore, included removing locations such as contractor-only facilities, parking lots,
land, and antenna sites from the data provided, to arrive at the above-stated 135-facility
population size.

Sample Design and Modifications

The audit used a simple random sample design. We randomly selected 35 facilities for
review. This sample size was planned to select facilities at the second stage of a two-
stage design and was, therefore, not designed to provide a predetermined level of
precision for an individual district projection. In changing to district-level projections, the
audit team agreed to accept whatever level of precision derived from the existing
sample size. Three separate attributes were included for the facility analysis.
Appendix C is a list of the 35 facilities that were randomly selected to determine which
facilities had physical security reviews conducted and had crisis management plans on
hand.

Statistical Projections of the Sample Data

All attributes are projected to the universe of 135 facilities. There were no differences
reported in the data universe for FY 1997 versus FY 1998.




                                                 17
Review of the Violence Prevention and Response                                  LB-AR-00-006
 Programs in the South Florida District


Attribute 1: Physical Security Reviews Conducted In FY 1997

Because of the low number of “positive” responses in the sample, this results set was
analyzed using the hypergeometric adaptation of the binomial attribute table for controls
testing, found in the General Accounting Office’s (GAO) Financial Audit Manual (the
“FAM”). Because the population size is small, the tabulated values (for 95 percent
reliability) are adjusted by the hypergeometric finite population correction,
((N-n)/(N-1))^0.5.

Based on a projection of the sample results, we are 95 percent confident that no more
than 10 (7.4 percent) of the South Florida District facilities conducted a physical security
review in FY 1997. The unbiased point estimate is zero facilities. (Universe: 135)

Attribute 2: Physical Security Reviews Conducted In FY 1998

Because of the low number of “positive” responses in the sample, this results set was
analyzed using the hypergeometric adaptation of the binomial attribute table for controls
testing, found in the GAO’s Financial Audit Manual (the “FAM”). Because the
population size is small, the tabulated values (for 95 percent reliability) are adjusted by
the hypergeometric finite population correction, ((N-n)/(N-1))^0.5.

Based on a projection of the sample results, we are 95 percent confident that no more
than 10 (7.4 percent) of the South Florida District facilities conducted a physical security
review in FY 1998. The unbiased point estimate is zero facilities. (Universe: 135)

Attribute 3: Crisis Management Plans On Site

The sample data were analyzed based on the estimation of a population proportion for a
simple random sample as described in Elementary Survey Sampling, Scheaffer,
Mendenhall, and Ott, c.1990.

Based on a projection of the sample results, we are 95 percent confident that as many
as 36 (27 percent) of the 135 South Florida District facilities did not have a copy of the
district crisis management plan. The unbiased point estimate is 23 or 17 percent of the
135 facilities without the crisis management plan. (Universe: 135)




                                                 18
Review of the Violence Prevention and Response                                LB-AR-00-006
 Programs in the South Florida District


                                          APPENDIX C
 SAMPLE OF CRISIS MANAGEMENT PLANS ON SITE AND PHYSICAL
             SECURITY REVIEWS CONDUCTED AT
            SOUTH FLORIDA DISTRICT FACILITIES
                FISCAL YEARS 1997 AND 1998
                                                                             PHYSICAL
                                                                  CRISIS
                                                                             SECURITY
ITEM       TYPE OF                                             MANAGEMENT
                            LOCATION             ZIP CODE                     REVIEWS
 NO.       FACILITY                                             PLANS ON
                                                                            CONDUCTED
                                                                   SITE
                                                                            FY 97 FY 98
1        Postal Store     Ft Lauderdale            33319          YES        NO     NO
                          – Sabal Palm
2        Post Office      Key West –               33040          YES       NO      NO
                          Flager
3        Post Office      Miami – Martin           33147          NO        NO      NO
                          Luther King
4        Post Office      Ft Lauderdale            33319          YES       NO      NO
                          – Inverrary
5        Post Office      Pompano            33060/61/62/69       YES       NO      NO
         and Vehicle      Beach – Main
         Maintenance      Office
         Facility
6        Finance Unit     Miami –                  33151          YES       NO      NO
                          Edison Center
7        Post Office      Miami –                33173/83/93      NO        NO      NO
                          Sunset
8        Post Office      Key West Main            33040          YES       NO      NO
                          Office
9        Post Office      Hollywood –            33019 thru       YES       NO      NO
         and Vehicle      Main Office              33029
         Maintenance
         Facility
10       Post Office      Hialeah –                33014          YES       NO      NO
                          Palmetto-
                          Lakes
11       Post Office      Key Largo –              33037          YES       NO      NO
                          Main Office
12       Post Office      Summerland               33042          YES       NO      NO
                          Key – Big                33043
                          Pinekey
13       Post Office      Ft Lauderdale            33335          YES       NO      NO
                          – Southside
14       Equipment        Hollywood              33019 thru       YES       NO      NO
         Warehouse                                 33029
15       Post Office      Miami –                  33133          YES       NO      NO
                          Coconut Grove




                                                   19
Review of the Violence Prevention and Response                                LB-AR-00-006
 Programs in the South Florida District


                                                                             PHYSICAL
                                                                  CRISIS
                                                                             SECURITY
ITEM       TYPE OF                                             MANAGEMENT
                            LOCATION             ZIP CODE                     REVIEWS
 NO.       FACILITY                                             PLANS ON
                                                                            CONDUCTED
                                                                   SITE
                                                                            FY 97 FY 98
16       Post Office      Ft Lauderdale            33317          YES        NO     NO
                          – Plantation
17       Post Office      Marathon Main            33050          YES       NO      NO
                          Office
18       Post Office      Ft Lauderdale            33312          YES       NO      NO
                          – Riverland
19       Post Office      Ft Lauderdale            33325          YES       NO      NO
                          – Westside
20       Post Office      Miami –                  33140          YES       NO      NO
                          Oceanview
21       Post Office      Pompano                 33071/77        YES       NO      NO
                          Beach –
                          Atlantic Blvd
22       Post Office      Dania—Main               33004          YES       NO      NO
                          Office
23       Post Office      Miami – Uleta            33164          YES       NO      NO
24       Post Office      Miami –                  33154          YES       NO      NO
                          Surfside
25       Post Office      Miami Gardens          33015            YES       NO      NO
26       Post Office      Ft Lauderdale      33314/28/29/30       YES       NO      NO
                          – Davie                /31/32
27       Carrier Annex    Miami – Trail      33184/74/82/92       NO        NO      NO
28       Finance Unit     Hollywood –            33021            NO        NO      NO
                          Hillcrest
29       Post Office      Miami – Ojus             33163          YES       NO      NO
30       Finance          Fl Lauderdale -          33306          YES       NO      NO
         Station          Coral Ridge
31       Post Office      Miami –                  33169          YES       NO      NO
                          Norland
32       Finance Unit     Miami –                  33134          NO        NO      NO
                          Miracle Mile
33       Post Office      Pompano                33063/66/93      YES       NO      NO
                          Beach –
                          Margate
34       Carrier Annex    Hollywood –              33029          NO        NO      NO
                          Pembroke
                          Pines
35       Post Office      Shenandoah               33145          YES       NO      NO




                                                   20
Review of the Violence Prevention and Response                                  LB-AR-00-006
 Programs in the South Florida District


                                         APPENDIX D
    STATISTICAL SAMPLING AND PROJECTIONS FOR EMPLOYEES
         TRAINED IN WORKPLACE VIOLENCE AWARENESS
                 IN THE SOUTH FLORIDA DISTRICT
              JUNE 1, 1997, THROUGH JUNE 30, 1999
Purpose of the Sampling

One of the objectives of this audit was to assess the South Florida District’s
implementation of Postal Service policy to train supervisors/managers and craft
employees in conflict resolution and workplace violence awareness. In support of this
objective, the audit team conducted statistical samples of personnel from each of the
two groups. A simple random attribute sample design was used in both cases.

Definition of the Audit Universe

For the craft employee assessment, the audit universe consists of 10,872 craft
employees in the South Florida District. For the supervisory-level assessment, the audit
universe is a total of 754 supervisors and managers in the district.

All training information came from the personnel database in Minneapolis, Minnesota.

Sample Design and Modifications

The audit used a simple random sample design. We randomly selected 50 craft
employees and 50 managers and supervisors for the review. This sample size was
planned to select employees at the second stage of a two-stage design and was
therefore not designed to provide a predetermined level of precision for an individual
district projection. In changing to district-level projections, the audit team agreed to
accept whatever level of precision derived from the existing sample size. Three
separate attributes were included for the supervisory-level training analysis.

Statistical Projections of the Sample Data

In general, the sample data were analyzed based on the estimation of a population
proportion for a simple random sample as described in Elementary Survey Sampling,
Scheaffer, Mendenhall, and Ott, c.1990.

In some cases, a low number of “positive” responses in the sample required analysis
using the hypergeometric adaptation of the binomial attribute table for controls testing,
found in the GAO’s Financial Audit Manual (the “FAM”). The tabulated values (for 95
percent reliability) are adjusted by the hypergeometric finite population correction, ((N-
n)/(N-1))^0.5.




                                                 21
Review of the Violence Prevention and Response                                  LB-AR-00-006
 Programs in the South Florida District


Results are presented for a one-sided confidence interval as well as the point estimate.
For the collection of supervisory attributes, the sum of the point estimates will equal the
total population. A sum of the upper bounds is meaningless because any increases in
one category would be offset by reductions in another.

Craft Employee Training Projection

Based on a projection of the sample results, we are 95 percent confident that no more
than 640 (6 percent) of the 10,872 craft employees in the South Florida District received
training in workplace violence awareness. The unbiased point estimate is zero
employees who met the training criterion.

Supervisors and Managers: Training Projection

Based on a projection of the sample results, we are 95 percent confident that up to
129 (17 percent) of the 754 South Florida District supervisors and managers received
no workplace violence awareness training. The unbiased point estimate is 8 percent, or
60 supervisors and managers, who received no subject-matter training.

Based on a projection of the sample results, we are 95 percent confident that up to
203 (27 percent) of the 754 South Florida District supervisors and managers received
some subject-matter training ranging from 6 to 16 hours, possibly as part of other
supervisory courses. The unbiased point estimate is 18 percent, or 136 supervisors
and managers.

Based on a projection of the sample results, we are 95 percent confident that up to
635 (84 percent) of the 754 South Florida District supervisors and managers met or
exceeded the 12-hour subject-matter training criterion. The unbiased point estimate is
that 74 percent, or 558 supervisors and managers, met the 12-hour criterion.




                                                 22
Review of the Violence Prevention and Response        LB-AR-00-006
 Programs in the South Florida District


                  APPENDIX E. MANAGEMENT’S COMMENTS




                                                 23
Review of the Violence Prevention and Response        LB-AR-00-006
 Programs in the South Florida District




                                                 24
Review of the Violence Prevention and Response        LB-AR-00-006
 Programs in the South Florida District




                                                 25
Review of the Violence Prevention and Response        LB-AR-00-006
 Programs in the South Florida District




                                                 26
